Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Administration on Aging’s Health Care
     Fraud and Abuse Programs

           18-Month Outcomes




                   JUNE GIBBS BROWN
                    Inspector General

                       August 1999
                      OEI-02-99-00110
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Jodi Nudelman, Project Leader                           Susan Burbach, Program Specialist
Judy Lin                                                Linda Hall, Program Specialist




      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                  EXECUTIVE SUMMARY

PURPOSE

To report on 18-month performance of the Administration on Aging’s (AoA) two health care
fraud and abuse control programs.


BACKGROUND

The AoA asked the Office of Inspector General (OIG) to assess the performance and
implementation of its two health care fraud and abuse control programs: the Health Care Anti-
Fraud, Waste, and Abuse Community Volunteer Program and the Health Insurance Portability
and Accountability Act (HIPAA)-funded Program. AoA will use this information to inform
Congress and others about the programs’ performance and to develop guidance for current and
future projects.

Both of these programs aim to educate beneficiaries about health care fraud, waste, and abuse,
but operate somewhat differently. The community volunteer program receives $2 million and
provides grants to 12 organizations to recruit and train retired professionals to conduct group
sessions to educate beneficiaries. This program has recently been expanded to $7 million. The
second program receives $1.4 million in funding under the Health Insurance Portability and
Accountability Act (HIPAA) of 1996. The goal of this program is to train aging network staff
and volunteers to educate Medicare beneficiaries about health care fraud, waste, and abuse as part
of their ongoing activities.

In response to AoA’s request, the OIG developed two reports. This report presents 18-month
performance data for the two programs and a companion report entitled, AoA’s Health Care
Fraud and Abuse Programs: Implementation Issues OEI-02-99-00111, describes implementation
issues and effective practices of the two programs. The findings in these reports are based on
self-reported data that were not independently verified.


FINDINGS

The AoA’s two anti-fraud programs educated thousands of beneficiaries who identified
some instances of health care fraud, waste, and abuse.

In their first 18 months of operation, AoA’s two anti-fraud programs trained a total of 13,700
aging network staff, volunteers, and retired seniors to be Medicare educators and resources.
These trainers educated at least 71,460 Medicare beneficiaries about how to identify and report

                                                1

suspected instances of health care fraud and abuse. Additionally, the two programs reported
conducting 570 media events and 2,880 community education activities.

In total, the programs referred 871 allegations to Medicare contractors or other agencies for
follow-up. These referrals generated 133 complaints that resulted in some action. The projects
also reported that an estimated $1.24 million in Medicare funds and $102,000 in Medicaid and
other funds may be recouped as a result of their efforts.

The two programs produced different results.

The community volunteer projects recruited and trained 3,700 individuals to educate beneficiaries.
More than half were retired professionals. These trainers educated about 58,700 beneficiaries and
family members in group sessions, teaching them how to identify and report health care fraud and
abuse. They reached another 2,000 beneficiaries in one-on-one sessions. In total, five community
volunteer projects reported a potential $1.24 million in Medicare savings.

The HIPAA-funded projects trained over 10,000 individuals who were primarily ombudsman staff
and volunteers or health insurance counselors. These trainers were able to reach at least 10,000
beneficiaries. The HIPAA-funded projects did not specifically report data on the number of
beneficiaries reached in one-on-one sessions. None of these projects could document any
potential Medicare savings as of 18 months, partly because many of these projects did not track
complaint outcomes.


CONCLUSION
Two outcome measures are particularly important for measuring the performance of these two
programs: the number of beneficiaries educated and the amount of money saved by the programs.


Educating Beneficiaries: Both programs educated an impressive number of beneficiaries. The
community volunteer program, however, appeared to reach a greater number of beneficiaries than
the HIPAA-funded program. This difference was partly due to the different approaches that the
two programs implemented. Specifically, the community volunteer program generally followed a
train-the-trainer approach in which the trainers conducted group sessions, whereas the HIPAA-
funded program trained existing network staff and volunteers who met with beneficiaries one-on-
one, as part of their ongoing responsibilities.

Tracking Savings: Direct evidence about savings was difficult to obtain. While the programs
were successful in educating beneficiaries, there was no direct evidence that they produced more
savings than the amount of money that was invested in them. There are a number of reasons for
this lack of evidence. First, beneficiaries are often encouraged to call their provider or Medicare
contractor with problems and projects may not be aware of these activities. Second, the projects


                                                 2

are relatively new and not all of them have developed tracking systems for the complaints that
come to their attention. Third, the investigative and prosecutorial processes are lengthy and
therefore 18 months may not be enough time to achieve significant savings. Lastly, there is likely
to be a sentinel effect from this initiative that is reducing inappropriate billing.

Additionally, we found that performance among the projects was very uneven. While many
projects were successful in educating beneficiaries and in identifying some savings, almost an
equal number produced minimal results during the first 18 months of the program.

Based on these findings, we encourage AoA to continue its work with the projects to identify and
institutionalize effective practices. Further, as AoA expands the community volunteer program, it
needs to assist new grantees so that they do not “reinvent the wheel” as they start-up their
efforts. We hope that this report and our companion report will help AoA achieve these
objectives and help new grantees, as well as current projects, implement effective practices and
improve future performance.


COMMENTS

We received comments from AoA. They pointed out the difficulty in tracking specific dollar
savings early in the program. However, they are optimistic that the thousands of trained
beneficiaries will have a significant impact on fraud, waste, and abuse in the Medicare program.
The full text of AoA’s comments can be found in Appendix D.




                                                 3

                           TABLE OF CONTENTS




                                                                                                                         PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          AoA’s Anti-Fraud Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Community Volunteer Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          HIPAA-Funded Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


          A. List of Health Care Fraud and Abuse Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          B. Performance Data Reported by Community Volunteer Projects . . . . . . . . . . . . . . . . 20


          C. Performance Data Reported by HIPAA-Funded Projects . . . . . . . . . . . . . . . . . . . . . 25


          D. AoA’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34





                                                                4

                            INTRODUCTION


PURPOSE

To report on 18-month performance of the Administration on Aging’s (AoA) two health care
fraud and abuse control programs.

BACKGROUND

The AoA asked the Office of Inspector General (OIG) to assess the performance and
implementation of its two health care fraud and abuse control programs: the Health Care Anti-
Fraud, Waste, and Abuse Community Volunteer Program and the Health Insurance Portability
and Accountability Act (HIPAA)-funded Program. AoA will use this information to inform
Congress and others about the programs’ performance and to develop guidance for current and
future projects.

AoA asked OIG to evaluate the performance and the implementation of its anti-fraud initiatives
for several reasons. First, this information is a continuation of other work conducted by the OIG.
At AoA’s request, the OIG helped develop performance measures for the community volunteer
program and agreed to collect these data on an ongoing basis. Second, the results of the report
that presented first year performance data entitled, Health Care Anti-Fraud, Waste, and Abuse
Community Volunteer Program: First Year Outcomes OEI-02-97-00522, generated interest in
implementation issues. This report found that first year performance varied widely among the 12
projects, suggesting that the projects implemented the program differently or that some had
slower starts than others. Third, Congress recently expanded the community volunteer program
and AoA is currently selecting new grantees. As a result of these factors, AoA believed that it
was an important time to look at these issues.

To meet these objectives, the OIG developed two reports. The following report presents 18-
month performance data for the two programs. A companion report entitled, AoA’s Health Care
Fraud and Abuse Programs: Implementation Issues OEI-02-99-00111, describes the
implementation of these two programs including problems projects encountered and practices
they developed to overcome these barriers.

Operation Restore Trust

In 1995, AoA became a partner in a OIG-led demonstration project to fight fraud, waste, and
abuse in the Medicare and Medicaid programs called Operation Restore Trust (ORT). This two-
year demonstration program focused on combating health care fraud, waste, and abuse in five
States. This initiative showed that Medicare beneficiaries and others could play an important role

                                                5

in curbing losses to the Medicare and Medicaid programs by becoming better educated about how
to identify and report suspected instances of fraud and abuse. The results of the demonstration
program encouraged AoA to continue and to expand its efforts.

Health Care Anti-Fraud, Waste, and Abuse Community Volunteer Program

Congress authorized the Health Care Anti-Fraud, Waste, and Abuse Community Volunteer
Demonstration Program in the Omnibus Consolidated Appropriation Act of 1997 (P.L. 104-208)
to further reduce fraud and abuse in the Medicare and Medicaid programs. At that time, the
Senate Committee believed that thousands of retired accountants, health professionals,
investigators, teachers, and others could serve as community volunteers in this effort. More
specifically, these retired professionals, with appropriate training, could serve as Medicare
educators and as expert resources to assist Medicare beneficiaries and others to detect and report
fraud, waste, and abuse. Because the language for this program was introduced by Senator Tom
Harkin of Iowa, these grants are commonly known as “Harkin Projects.” For this inspection, they
are referred to as the community volunteer projects.

To fund this program, the Senate Report (104-368) directed that $2 million be transferred to AoA
from the Health Care Financing Administration’s research and demonstration budget. In July of
1997, AoA awarded grants to 12 organizations including two area agencies on aging, six State
units on aging, and four private aging organizations. This report is based on these 12 projects.

As of October 1998, the program was expanded. Under Title IV of the Older Americans Act in
the FY1999 Omnibus Appropriations Act, funding for the program was increased to $7 million,
significantly extending the scope of the program. AoA is currently reviewing applications and
selecting grantees for this new round of funding. These projects will be called the Senior
Medicare Patrol Projects.

HIPAA-Funded Program

The AoA developed a second set of projects that are funded under the Health Insurance
Portability and Accountability Act (HIPAA) of 1996. The goal of these projects is to combat
health care fraud, waste, and abuse by training aging network staff and volunteers to educate
Medicare beneficiaries. In August 1997, AoA awarded grants to 15 State units on aging. In
March 1998, the program was expanded to include three additional States. The program received
a total of $3.8 million for the first three fiscal years. In FY 99, $1.4 million in funding was
provided. About $900,000 of these funds was granted to State units on aging. The remaining
funds were used by AoA for training and technical assistance for the grantees, for facilitating the
exchange of resources, for identifying best practices, for convening national and regional
partnership conferences, and for developing and disseminating informational materials.




                                                 6

It is important to note that the two programs differ in several ways. First, the HIPAA-funded
projects primarily train aging network staff and volunteers who educate Medicare beneficiaries as
part of their ongoing activities. In contrast, the community volunteer projects recruit and train
retired seniors who conduct group sessions to educate Medicare beneficiaries. Second, the
HIPAA-funded projects are run solely by State agencies, whereas the community volunteer
projects are operated by State, local, or non-profit agencies. Third, the HIPAA-funded projects
receive less funding than the community volunteer projects. Specifically, AoA awarded $50,000
annually to HIPAA-funded projects and between $100,000 and $188,000 per year to community
volunteer projects.

Performance Measures

With the assistance of AoA and the 12 projects, OIG developed a set of performance measures
for the community volunteer projects. (See Health Care Anti-Fraud Volunteer Project
Performance Measures OEI-02-97-00520.) To provide ongoing information about the program,
the OIG asked each of the projects to provide data on these agreed upon performance measures
on the 12, 18, 24, and 30 month anniversary of the initial grant. As mentioned earlier, first year
outcomes are presented in the OIG report entitled, Health Care Anti-Fraud, Waste, and Abuse
Community Volunteer Program: First Year Outcomes OEI-02-97-00522.

Westat, Inc. a private research corporation under contract with AoA, developed performance
measures for the HIPAA-funded projects. Westat, Inc. collected preliminary outcome data for
the first year and is currently conducting a longer-term evaluation of both fraud and abuse control
programs. This evaluation will provide a more in-depth analysis of the implementation and impact
of the two programs.


METHODOLOGY

This inspection was conducted in several phases. First, OIG staff collected performance data
from the 12 community volunteer projects and 17 HIPAA-funded projects for the first 18 months
of the programs. Appendix A provides a list of all projects. Note that the New York State Unit
on Aging which receives funding from both programs is considered a community volunteer
project for the purposes of this report.1 Also, this report includes first year performance data for
the three HIPAA-funded projects that received funding in the second year.

Community volunteer projects reported data for the measures developed by the OIG for the time
period covering July 1, 1997 through December 31, 1998. The HIPAA-funded projects reported
data for the measures developed by Westat, Inc. for August 1,1997 through January 31, 1999.

       1
        Project staff explained that they use the community volunteer grant to fund several area
agencies on aging to conduct anti-fraud activities and the HIPAA grant for administrative
purposes.
                                                 7
The OIG staff reviewed these data for consistency and compared them to 12-month data when
appropriate. Appendices B and C present the data reported by each project. In addition, we
asked grantees to provide documentation about any money that was identified due to their
project’s efforts.

Second, we asked AoA for the projects’ most recent semi-annual report that they submitted as
part of AoA’s reporting requirements. Whenever possible, we compared these reports to their
performance data to check for consistency.

Third, we interviewed staff from each project. We conducted interviews with staff members from
selected projects on-site and interviewed the others by telephone. We asked project staff about
their experiences with implementing the program and about problems that they have had. We also
asked them to identify practices that have been effective, particularly in tracking outcomes. The
results of these data are reported in detail in our companion report entitled, AoA’s Health Care
Fraud and Abuse Programs: Implementation Issues OEI-02-99-00111.

As described, the two programs took different approaches to fighting health care fraud, waste,
and abuse. The measures that the programs were asked to report also differ in several ways. For
these reasons, we believe that a side-by-side comparison of the two programs is not appropriate.
A separate analysis of each program is therefore presented.

Limitations

It is important to note that the findings in this report are based on self-reported data that were not
independently verified. Furthermore, outcome findings gauge the extent to which the program is
achieving its intended goals; they do not provide information about the quality of these outcomes
nor the implementation of the program.

The following analysis does not solely focus on complaint outcomes for several reasons. As
described below, projects tracked these outcomes to different degrees. The number of complaints
that resulted in some action therefore may be an indication of a project’s capacity to track, rather
than its performance. Additionally, complaints may take a long time to investigate and therefore it
may be too early to evaluate a project based on these measures.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                                  8

                                    FINDINGS


The AoA’s two anti-fraud programs educated thousands of beneficiaries
who identified some instances of fraud and abuse.

In their first 18 months of operation, AoA’s two anti-fraud programs trained a total of 13,700
aging network staff, volunteers, and retired seniors to be Medicare educators and resources.
About 3,200 of these individuals, or 38 percent, went on to educate others or to conduct outreach
activities about health care fraud, waste, and abuse.

Trainers in the two program educated at least 71,460 Medicare beneficiaries and family members.
Typically, they conducted group sessions or met with beneficiaries one-on-one, instructing them
how to review their health care bills, statements, and other documents, and how to identify and
report any suspected instances of fraud and abuse. The two programs also reported conducting a
total of 570 media events and 2,880 community education activities. These activities were
generally aimed at informing the larger public about these issues.

In total, the programs referred 871 allegations to Medicare contractors or other agencies for
follow-up. These referrals generated 133 complaints that resulted in some action. The projects
also reported that an estimated $1.24 million in Medicare funds and $102,000 in Medicaid and
other funds may be recouped as a result of their efforts. Not all projects were able to identify
potential Medicare savings.

Several projects qualified the data they reported about complaints. A few stressed that their
numbers underestimated the impact of the program. They explained that they sometimes
encouraged beneficiaries to make complaints to their Medicare carrier or to the OIG Hotline
directly. They did not, however, have the capacity to track complaints made through these
channels. In addition, several projects noted that complaints often took a long time to investigate
and therefore their outcomes may not be known at this time.




                                                 9

COMMUNITY VOLUNTEER PROJECTS

The community volunteer projects generally implemented a train-the-trainer approach. Projects
typically recruited seniors at senior centers and in the community at large. They then trained them
to conduct presentations or group sessions to educate Medicare beneficiaries. Additionally, most
projects also trained aging network staff and volunteers who educated beneficiaries about fraud
and abuse as part of their ongoing responsibilities. These individuals typically included State and
local long-term care ombudsmen, health insurance counselors, and others who worked directly
with seniors.

Training Trainers

The 12 projects recruited and trained many retired seniors to be Medicare educators and
trainers.

Overall, the 12 community volunteer projects reported recruiting and training a total of 3,691
individuals, at least half of whom were retired professionals.2 Projects employed different
strategies to recruit individuals such as advertising in local newspapers and approaching members
of existing senior organizations. As shown in Figure 1, the number of trainers varied greatly by
project.

                                                     Figure 1
                                      Number of Trainers Trained in 18 Months




                                                                                     Total: 3,691




                  Note: Each grantee does not necessarily serve the entire State.   Source: OEI Survey, 1999




       2
           Note that projects defined who they considered to be professional differently.
           Additionally, three projects did not track this type of information.

                                                                     10
Not all seniors who were trained, however, continued to stay involved in the projects. Most
projects maintained a smaller corps of active volunteers. Taking into account the projects that
tracked this information, about half of all individuals trained by the community volunteer projects
ever conducted activities to educate beneficiaries. This rate varied by project, indicating that
some projects were less successful than others at getting trainers involved once they had
completed training. Six projects, for example, retained less than one-quarter of trainers, whereas
the remaining five projects were able to involve at least two-thirds of all those trained.


Educating Seniors

Projects educated a large number of beneficiaries and others to identify and report health
care fraud, waste, and abuse.

Collectively, the 12 community volunteer projects reported educating about 60,734 beneficiaries,
family members, and others in the first 18 months of the program. As shown in Figure 2, the
number of beneficiaries educated varied by project.

The community volunteer projects typically conducted two types of training: group and one-on-
one. In total, trainers led 1,422 group sessions that reached nearly 58,691 beneficiaries and
others. All but two projects also conducted one-on-one sessions that reached another 2,043
individuals. Projects provided one-on-one assistance to varying degrees.

                                                       Figure 2
                               Number of Beneficiaries and Others Educated in 18 Months




                                                                             Total: 60,734




          Note: Each grantee does not necessarily serve the entire State.   Source: OEI Survey, 1999




                                                                     11

There did not appear to be a strong relationship between the number of beneficiaries educated and
the number of trainers in a project. Some projects that trained relatively few trainers were able to
reach many beneficiaries. The project in Pennsylvania, for example, trained 60 individuals, 40 of
whom ever conducted activities, and educated more than 6,000 beneficiaries. Similarly, some
projects that trained large numbers of trainers reached relatively few beneficiaries. The project in
New Hampshire, for example, trained 238 individuals, all of whom conducted some activities, but
educated only 1,300 beneficiaries.

Community Awareness

Projects conducted various outreach activities, raising awareness about health care fraud
and abuse.

The 12 projects reported conducting a total of 420 media events that reached an estimated 68.5
million people in the first 18 months of the program. The projects also performed about 1,200
community education activities that informed an estimated 168,850 individuals. Overall, projects
conducted a median of 20 media events and 51 community education activities. Some projects
placed more emphasis on these types of activities than others. The project in Minnesota, for
example, conducted 223 media events. The projects in New York and Iowa each conducted
about 300 community activities. In contrast, a few projects held less than 15 of these types of
activities.

Identifying Referrals

The projects identified suspected instances of fraud, waste and abuse, some of which may
result in recouped Medicare funds.

Overall, the projects referred about 400 allegations to appropriate authorities. The majority of
these referrals came from two projects, Iowa and New York, which referred 171 and 52
allegations, respectively. Five other projects reported referring at least 20 complaints. One
project did not make any referrals.

Projects reported that these referrals generated a total of 93 complaints that resulted in some
action. Five projects also reported that an estimated $1.24 million in Medicare funds may be
recouped as a result of their efforts. The other seven projects did not know or reported that none
of the complaints they referred had resulted in Medicare funds being recouped. In addition, six
projects estimated that $102,000 in Medicaid and other funds may be recouped due to their
projects’ efforts.




                                                12

HIPAA-FUNDED PROJECTS

The HIPAA-funded projects implemented the program differently than the community volunteer
projects. The HIPAA-funded projects primarily trained aging network staff and volunteers about
fraud and abuse. These individuals typically met with Medicare beneficiaries and others one-on-
one and integrated what they learned about fraud, waste, and abuse in their usual activities. In
general, these projects placed less emphasis on conducting group sessions to educate Medicare
beneficiaries compared to the community volunteer projects.

Training Trainers

The HIPAA-funded projects trained large numbers of staff and volunteers, primarily in the
aging network

The 17 HIPAA-funded projects reported training a total of about 10,000 staff and volunteers to
be Medicare resources and educators in the first 18 months of the program. As shown Figure 3,
the number of individuals trained varied greatly by project. Unlike the community volunteer
projects, it was not uncommon for these trainers to also educate additional staff and volunteers.
Collectively, the projects reported conducting sessions to educate another 3,000 staff and
volunteers about fraud and abuse.

The variation in the number of trainers reflects the different approaches taken by the projects.
The project in Colorado, for example, trained a small number of staff and volunteers who trained
additional staff and volunteers. In contrast, the project in Massachusetts, trained a large number
of staff and volunteers who did not conduct any additional sessions to train others.

In all but one project, the majority of people trained were staff and volunteers in the aging
network. These individuals typically included State and local long-term care ombudsmen, health
insurance counselors, aging network service staff, and others who worked directly with older
people. Only five projects reported training staff and volunteers who were not in the aging
network. These individuals typically included senior advocates, retired seniors, and others.

Although projects trained a large number of staff and volunteers, not all remained active. Taking
into account only the projects that tracked this information, an estimated 2,141 individuals, or 34
percent of all those trained, were promoting awareness and the reporting of health care fraud and
abuse at the end of the 18-month reporting period. This rate greatly varied among the projects,
indicating that some projects had greater difficulty retaining volunteers than others.




                                                13

                                                     Figure 3
                                      Number of Trainers Trained in 18 Months




                                                                                         Total: 10,001




          Note: Data for LA, NJ, and OR include only the first year of the program.   Source: OEI Survey, 1999




Educating Seniors

Several projects educated many Medicare beneficiaries and others.

The HIPAA-funded projects reported educating a total of about 10,700 Medicare beneficiaries,
family members, caregivers, and others. As discussed, not all projects implemented the program
in this way. Also, the HIPAA-funded projects were not asked to specifically report the number of
one-on-one sessions that they conducted. Most likely, this information would have substantially
increased the number of beneficiaries that were informed about fraud and abuse as a result of
these projects.

Most projects reported conducting some sessions to educate beneficiaries and others about health
care fraud and abuse. Six projects conducted at least 30 sessions each or informed more than 850
beneficiaries each in this manner. These projects appeared to be similar to the community
volunteer projects. For example, the project in Florida which followed the train-the-trainer
model, reached the largest number of beneficiaries, over 4,100, or about 38 percent of the total
number educated by all projects.




                                                                  14

                                                 Figure 4
                         Number of Beneficiaries and Others Educated in 18 Months




                                                                                          Total: 10,727


                                                                                                     DK     DK




          Note: Data may not include beneficiaries educated in one-on-one sessions.
                                                                                      Source: OEI Survey, 1999
                Data for LA, NJ, and OR include only the first year of the program.
                DK indicates grantee was unable to provide specific information.




Community Awareness

The HIPAA-funded projects also conducted public awareness campaigns and other
community outreach activities to reach a broader audience.

HIPAA-funded projects reported conducting about 1,672 community education activities that
informed more than 26,873 individuals about how to identify and report health care fraud and
abuse. The number of outreach activities conducted varied by project. Specifically, seven
projects conducted less than six presentations or other outreach activities each. Two projects
organized more than 320 of these types of activities each.

The projects also developed a total of 152 public service announcements, press releases, or other
media events. In addition, all of the projects developed several types of other outreach materials
that most distributed widely. Collectively, the projects produced 155 brochures, posters, videos,
public information documents, and training and other outreach materials. Projects distributed
about 192,200 copies of these materials to members in their respective communities.




                                                                   15

Identifying Referrals

Projects identified some instances of suspected fraud and abuse, although their outcomes
are generally unknown.

The HIPAA-funded projects reported receiving a total of 2,586 calls concerning health care fraud
and abuse, during the 18-month reporting period. They also reported referring 469 allegations to
other agencies, forwarding almost half of them to Medicare contractors including carriers,
intermediaries, or regional durable medical equipment carriers. They referred another 20 percent
of the allegations to the OIG Hotline. The remaining complaints were sent to other health care
programs such as insurance counseling agencies, State Medicaid Fraud Control Units, State
Attorney General’s Offices, or other fraud and abuse agencies.

Few HIPAA-funded projects tracked the outcomes of these complaints. Seven projects reported
that a total of 22 complaints were accepted for investigation by complaint-handling agencies.
None of the projects documented that any complaints resulted in money being recouped or in a
conviction or other punitive action, although it may be too early to know this information. Two
projects reported that 40 complaints resulted in some other type of action.

It is important to note that the HIPAA-funded projects were not required to track complaint
outcomes. A few projects stressed that their role was to educate beneficiaries about how to
detect and report fraud and abuse. They believed the tracking and investigation was best left to
investigative agencies such as the Medicare contractors, the OIG, and State Attorney General’s
Offices. In addition, a few projects noted that they had not received any feedback about
complaints that they forwarded to the OIG Hotline.



PERFORMANCE MEASURES
Performance measures are viewed as too complex.

Performance measures for the two grant programs were developed separately and take somewhat
different approaches. Project staff had mixed reactions to the performance measures. They most
commonly stressed the need for simplified, well-defined measures that were not too burdensome
to complete.

The community volunteer projects were generally positive about the measures. A few commented
that it is somewhat difficult to gather the information, particularly the amount of money recouped
as a result of their project. They also noted that volunteers and AAA staff are often overworked
and should not be overburdened with excessive paperwork. A few grantees specifically noted that
it is very difficult, and perhaps unnecessary, to divide outcomes by retired professionals and
others. Several projects also suggested that if it is mandatory to collect these measures then they
should be part of AoA’s reporting requirements.

                                                16

The HIPAA-funded projects had additional comments about their performance measures. Several
expressed that they were too detailed or cumbersome. One project suggested eliminating some of
the questions, noting that “the easier the form, the more complete it will be.” A few reacted more
strongly, stating that the measures did not fit what their project was doing. As one grantee
argued, “there is a large gap between the reality of what we are doing and what is being
reported.” Others stressed that they do not track outcomes nor do they have the capacity to
divide their data into the required categories. Several projects had some difficulty distinguishing
between the categories and suggested clarifying key definitions.




                                                17

                               CONCLUSION

Two outcome measures are particularly important for measuring the performance of these two
programs: the number of beneficiaries educated and the amount of money saved by the programs.


Educating Beneficiaries: Both programs educated an impressive number of beneficiaries. The
community volunteer program, however, appeared to reach a greater number of beneficiaries than
the HIPAA-funded program. This difference was partly due to the different approaches that the
two programs implemented. Specifically, the community volunteer program generally followed a
train-the-trainer approach in which the trainers conducted group sessions, whereas the HIPAA-
funded program trained existing network staff and volunteers who met with beneficiaries one-on-
one, as part of their ongoing responsibilities.

Tracking Savings: Direct evidence about savings was difficult to obtain. While the programs
were successful in educating beneficiaries, there was no direct evidence that they produced more
savings than the amount of money that was invested in them. There are a number of reasons for
this lack of evidence. First, beneficiaries are often encouraged to call their provider or Medicare
contractor with problems and projects may not be aware of these activities. Second, the projects
are relatively new and not all of them have developed tracking systems for the complaints that
come to their attention. Third, the investigative and prosecutorial processes are lengthy and
therefore 18 months may not be enough time to achieve significant savings. Lastly, there is likely
to be a sentinel effect from this initiative that is reducing inappropriate billing.

Additionally, we found that performance among the projects was very uneven. While many
projects were successful in educating beneficiaries and in identifying some savings, almost an
equal number produced minimal results during the first 18 months of the program.

Based on these findings, we encourage AoA to continue its work with the projects to identify and
institutionalize effective practices. Further, as AoA expands the community volunteer program, it
needs to assist new grantees so that they do not “reinvent the wheel” as they start-up their
efforts. We hope that this report and our companion report will help AoA achieve these
objectives and help new grantees, as well as current projects, implement effective practices and
improve future performance.


COMMENTS

We received comments from AoA. They pointed out the difficulty in tracking specific dollar
savings early in the program. However, they are optimistic that the thousands of trained
beneficiaries will have a significant impact on fraud, waste, and abuse in the Medicare program.
The full text of AoA’s comments can be found in Appendix D.

                                                18

                                                                            APPENDIX A




                  The Health Care Fraud and Abuse Programs



      Community Volunteer Projects                           HIPAA-Funded Projects

       State Units on Aging                                  State Units on Aging
       Hawaii
                                               Arizona
       Iowa
                                                 California
       Maryland
                                             Colorado
       Minnesota
                                            Florida
       New Hampshire
                                        Georgia
       New York*
                                            Illinois
                                                             Louisiana+
       Area Agencies on Aging                                Massachusetts
       District III AAA, Missouri                            Missouri
       Suburban AAA, Illinois                                New Jersey+
                                                             New York*
       Private Aging Organizations                           Ohio
       Aging 2000, Rhode Island                              Oregon+
       California Health Insurance                           Pennsylvania
        Counseling Advocacy Programs                         Tennessee
       Coalition of Advocates for the Rights         Texas
        of the Infirm Elderly, Pennsylvania                Virginia
       Coalition of Wisconsin Aging Groups           Washington



* Note: The New York State Unit on Aging receives both types of grants. 	 For the purposes of
       this report, it is considered a community volunteer project.

+ Note: Incorporated at a later date and have only received funding for
         the second year.




                                               19

                                                                                                                                                       APPENDIX B

                18-Month Outcomes Reported by the Community Volunteer Projects


State                           RI         IL           PA         MD          CA               MO         MN         IA            HI           WI          NY          NH        TOTAL

Projects                     Aging 2000 Sub.AAA        CARIE      MD SUA       CHA        Dist 3 AAA      MN SUA     IA SUA        HI SUA       CWAG        NY SUA      NH SUA

$ recruiting retired prof       20,000     35,445       20,200             0     7,447          19,692      30,818            0     12,693             0     12,870      12,663     171,828

$ recruiting others                  0     12,510        2,050       9,000      25,000           7,816       2,694     37,779               0    16,000      19,454       2,533     134,836

$ training retired prof         40,000     45,870       30,000             0    57,344          22,225       8,245            0     38,078             0     10,329      37,990     290,081

$ training others               34,362     14,595       10,000       2,380      15,000           6,821      11,369      5,941               0    19,100      23,968       6,332     149,868

$ support retired prof          26,030     39,615       10,000             0    12,460          20,688      11,276            0      4,847             0       6,505     18,990     150,411

$ support others                 2,000     16,680        5,000       2,500      30,810           5,713       8,531     38,912               0    29,400        3,360      6,332     149,238

$ community education           62,392     22,935       10,000       9,000      17,130          18,896      52,775            0      9,680            DK     54,581      37,990     295,379

$ tracking system               19,000     20,850       15,000       3,750      22,140           3,833       2,828         675              0     1,650        1,307      3,799      94,832

total $ spent                  203,784    208,500      102,250      26,630     187,331      105,684        128,536     83,307       65,298       66,150     132,374 126,629        1,436,473

# training sessions                  4            7          15            1         24              9          15            15            6         14          DK          3         113

# retired prof trained               23           85         50            0      483                31         28            0          42            0          941      215        1,898

# of others trained                  71           20         10         60           74              4          79         382           19           400         651         23      1,793

total # of people trained            94         105          60         60        557                35       107          382           61           400      1,592       238        3,691

# media events                       7            28         20         27           39              24       223          DK            20            3          17          12        420

# community ed. activities           14           46      100         187            0               48         53         334           11           79          297         40      1,209



Note: DK indicates grantees were unable to provide specific data. 

                                                                                          20

                                                                                                                                                                            APPENDIX B


                                                       18-Month Outcomes for the Community Volunteer Projects


State                                RI         IL           PA         MD          CA               MO         MN            IA           HI           WI          NY          NH        TOTAL
Projects                          Aging 2000 Sub.AAA        CARIE      MD SUA       CHA        Dist 3 AAA      MN SUA       IA SUA        HI SUA       CWAG        NY SUA      NH SUA

# trainers who did activities             23         105          40         10       505                 35         23              30            5         40          DK       238         1,054

# group sessions by prof                  67         329       125              0     100                 13         39              0          15            0          104         1          793

# group sessions by others                20           21         25         23       104                 40         43            156          25           67          70          35         629

total # sessions                          87         350       150           23       204                 53         82            156          40           67          174         36       1,422

# of benes at ses. by prof            1,372     14,857        5,000             0    7,417             346         804               0        292             0       4,006      1,200       35,294

# of benes at ses. by others              209        340      1,000        368       7,715            1,439       1,460        4,259        1,071        2,027        3,409       100        23,397

total # of benes at ses.              1,581     15,197        6,000        368      15,132            1,785       2,264        4,259        1,363        2,027        7,415      1,300       58,691

# of 1-on-1 by retired prof                0         114       100              0     185              319              3            0             0          0          350         15       1,086

# of 1-on-1 by others                      0           0          30       272            61           227           15              75            0         35          237         5          957

total of 1-on-1                            0         114       130         272        246              546           18              75            0         35          587         20       2,043

total of benes educated               1,581     15,311        6,130        640      15,378            2,331       2,282        4,334        1,363        2,062        8,002      1,320       60,734

est. # of people by media hits    1,648,400 2,256,796 2,000,000         100,000 1,750,000            50,000     119,950 59,350,299         54,300      100,500     360,200 750,000        68,540,445

est # of people by com ed.            3,440      4,583        3,000       8,000           0          50,000       7,353       12,726          446       11,179      66,118       2,000      168,845

# complaints received                     14         114          50       116        185                 9          13            298             1         25          52       162         1,039

# complaints referred                     14           26         35         29           24              7             2          171             0         16          52          26         402

# complaints resulted in action           DK         DK           10         29            4               0            0            12            0          10          23          5           93

Medicare $ recouped                       DK         DK      74,124          DK     22,000                0             0   1,138,534              0     1,972        2,999          0     1,239,628

Other $ recouped                          DK         DK           DK         DK       210            87,094      12,110            658             0     1,865           DK       100       102,036

Total $ recouped                          DK         DK      74,124          DK     22,210           87,094      12,110     1,139,192              0     3,836        2,999       100      1,341,665


Note: DK indicates grantees were unable to provide specific data. 

                                                                                               21

                                                                                                   APPENDIX B


                         Community Volunteer Projects:

                                 Definitions



RETIRED PROFESSIONAL 	   These are retired individuals who were professionals (e.g., teachers, lawyers,
                         doctors, or accountants), who are new volunteers to the aging network, and who
                         are trained to help beneficiaries identify Medicare fraud.

OTHERS	                  These are any other individuals who are trained to help beneficiaries identify
                         Medicare fraud.


RECRUITING               Any effort to get individuals to take the training to become a trainer.


TRAINING                 The process of training the trainer.


SUPPORT	                 Any activity to help the trainers, such as transportation, renting space, printing
                         material, and telecommunications.


COMMUNITY EDUCATION	     Any training, outreach, or education activity not directed at the trainers nor
                         specifically in support of the trainers. It is geared to a broad audience.


TRACKING SYSTEM          The process of receiving, referring, and monitoring complaints.


TRAINED                  Completed training to conduct beneficiary education.


                                               22

                                                                                               APPENDIX B


                             Definitions (continued)



MEDIA EVENTS	          Any individual airing or publishing of media (e.g., print, radio, television, or
                       electronic) to educate beneficiaries and their families about Medicare fraud. (If it
                       is geared to trainers it is recruiting.)
COMMUNITY EDUCATION
ACTIVITIES	            Any beneficiary education activity not given by trainers or counted as media
                       events.


BENEFICIARIES	         Includes beneficiaries, family members, caregivers, and others who attended
                       sessions.


GROUP SESSIONS	        Medicare fraud education sessions for beneficiaries, family members, caregivers,
                       and others led by trainers.


ONE-ON-ONE ENCOUNTER   Sessions led by trainers for an individual beneficiary and/or his or her family.


COMPLAINTS	            Allegations of health care fraud and abuse reported by any individual as a result of
                       the project’s efforts.
                             Definitions (continued)

                                             23

                                                                                                APPENDIX B




COMPLAINTS REFERRED
FOR ACTION 	               Complaints deemed worthy of referring to a Medicare contractor or an
                           investigative agency.


COMPLAINTS THAT
RESULTED IN SOME ACTION	   Referrals successfully closed by a Medicare contractor or an investigative agency
                           (e.g., conviction, judgement, plea, or overpayment).


MEDICARE $ RECOUPED        Funds returned to the Medicare Trust Fund.




                                                24

                                                                                                                                                                              APPENDIX C


                                   18-Month Outcomes Reported by the HIPAA-Funded Projects 


                 Activity                    AZ       CA       CO    FL       GA       IL       LA    MA       MO    NJ       NY       OH       OR       PA       TN    TX     VA       WA       TOTAL


I. Training, Education, and
A. Materials development
1. # of brochures, posters, media                 3        4    4         1        2        2     2        2    1         0    33           9        2        3    1     6          5        3      50
products, or
     other public information documents

2. # of videos                                    2        0    0         1        0        0     0        0    0         0        5        1        1        0    0    DK          3        2      10

3. # of training curricula, manuals,              2        3    2         4        2        3     1        5    2     25       35      DK            2        3    0     2          2        1      59
handouts,
     or related instructional material

4. # of other training, education, and            2    12       4         2        1    DK        3        0    0         0        5        5        2   DK        2    DK          2        1      36
outreach
     materials

Total                                             9    19       10        8        5        5     6        7    3     25       78       15           7        6    3     8      12           7     155
B. Training and public information
1. # of training sessions for network on      56           8    2         9    11       10        3    20       15        0   275           3        7        5    3     15         1    35        203
aging
     agency staff, volunteers, and others

2. # of network on aging staff and           875      350       2    130      600      345       46 2,200      736        0 1,397      188      660      217       95   654     80 1,130          8,308
volunteers
     trained

3. # of other staff and volunteers trained    88 1,114          0     31           0        0     0        0    0         0   100           0   DK       DK        0    460         0   DK        1,693

4. # of forums and other public               81      701       25    70           2        2     2        5    0     12      137       37           3        5    32    24     37       86       1,124
information
     presentations conducted (not in 1-3)




Note: The total does not include New York.

                                                                                                25

                                                                                                                                     APPENDIX C

5. # of persons attending these forums   2,081 2,000   DK 5,257   65    12   100   300   0 1,500 10,12 4,200   160   228 1,42 1,00 5,168 3,373 26,873
and                                                                                                  5                      2    7
     other public information
presentations

6. # of media events conducted              9     0     2    76    7    2     1      0   0     0   69     0     3      6    3   10      0   33   152

7. # of public information items         45,15 14,00 1,75 15,58   800   1     1    500 2,00    0   DK 19,11 10,00 15,00 5,42    DK 12,88 50,00 192,21
distributed                                  6     0    0     2                           0               3     0     0    8           8     0      9
     (# of copies)

8. # of other training, education, and     86     0    300   79   26    1     2      0   2     0   224    0     0    DK     0   26     50    1   548
     outreach activities




Note: The total does not include New York.
                                                                             26
                                                                                                                                                                                       APPENDIX C


                   Activity                     AZ       CA       CO    FL       GA       IL       LA       MA       MO    NJ       NY       OH       OR       PA       TN       TX     VA       WA    TOTAL


C. Activities of ORT trainees
1. # of ORT trainees currently                    96 1,112        DK     60           4        0    16      400       89        0 6,932      165      DK       DK        63       56     80      DK     2,141
promoting
    awareness and reporting of health
care
    fraud and abuse

2. # of education and training sessions           58          7    15        0        0        2    6            0    0         0   240           0        9        5    3        3          0   DK      108
     by ORT trainees for staff and
volunteers

3. # of staff and volunteers attending           128 1,400        450        0        0    43       58           0    0         0 5,670           0   DK       560      285       68         0   DK     2,992
these
     sessions

4. # of sessions by trainees for                  75     DK        30    52           3    45       1            0    1         0   758           0   DK        40       0        4          0   DK      251
beneficiaries,
     family members, care givers, and
others

5. # of beneficiaries, family members,          1,801 1,000       856 4,120       97 1,071          22           0    20        0 9,184           0   DK 1,585           0       155         0   DK 10,727
care
     givers, and others attending these
sessions

II. Health Care Fraud and Abuse
    Complaint Receipt and Referral
A. Types of calls received

1. # of calls concerning billing for services        6    DK      DK     DK           2    DK           0    DK        0        0    31       DK       DK       DK           0   DK          7    10      25
     not received

2. # concerning double billing                       3    DK      DK     DK       DK       DK           0    DK        0        0    48       DK           1    DK           0   DK      11       DK      15

3. # concerning suppliers compiling CMN              0    DK      DK     DK       DK       DK           0    DK        0        0        0    DK       DK       DK           0   DK          0    DK       0
for
     physician

4. # concerning services not needed                  2    DK      DK     DK           2        2        0    DK        0        0   131       DK           1    DK           0   DK          4    DK      11

Note: The total does not include New York.
                                                                                                   27
                                                                                                                                   APPENDIX C


5. # concerning poor quality of care or           7    DK   DK   DK   DK    3    0   DK    0   DK   111   DK   DK   DK   0   DK       8    1     19
     limitations in needed care

6. # concerning other health care fraud and       6    DK   DK   DK    3    1    0   DK    0    0    0     3    1   DK   0   DK       5    6     25
     abuse

7. # concerning other health-related matters   3,653   DK   DK   DK   DK    2    0   DK    0   DK   160    3   DK    8   0   DK      10   26   3,702

8. # concerning non-health issues                 0    DK   DK   DK   DK   DK    0     0   0   DK   20    22   DK   DK   0   DK       8   DK     30

Total                                          3,671   DK   DK   43    7    8    0 2,302   0    0   501   28    3    8   0   152     53   43   6,318




Note: The total does not include New York.
                                                                                28
                                                                                                                                                                                     APPENDIX C


                  Activity                      AZ       CA       CO   FL       GA       IL       LA       MA    MO   NJ       NY       OH       OR       PA       TN       TX        VA       WA       TOTAL


B. Complaints referred for action

1. # referred to the HHS TIPS Hotline            26           6   DK    19           4    DK           6    DK    0        0        0    DK       DK       DK           0    29        DK           1      91

2. # referred to the Medicare Carrier                3   123      DK    21       DK           5        0    DK    0        5    52           2        2        4        0   DK         15           3     183

3. # referred to the Fiscal Intermediary             2    DK      DK    14       DK       DK           0    DK    0        0        0    DK       DK       DK           0   DK         12       DK         28

4. # referred to the Regional DME Carrier            1    DK      DK        0    DK       DK           0    DK    0        3    DK           1        1    DK           0   DK             7    DK         13

5. # referred to the State Medicaid Fraud            0    51      DK        5    DK       DK           0    DK    0        0    DK           1    DK       DK           0   DK         11       DK         68
     Control Unit/ Attorney General’s office

6. # referred to other fraud and abuse               2    DK      DK        2        3        1        0    DK    0        0    DK       DK       DK       DK           0   DK             7    DK         15
     agencies

7. # referred to other health care agencies          0    26      DK    11       DK           2        0    DK    0    DK       DK       24       DK       DK           0   DK             8    DK         71

8. # referred to the Eldercare Locator               0    DK      DK        0    DK       DK           0    DK    0        0        0    DK       DK       DK           0   DK             0    DK          0

Total                                            34      206      DK    72           7        8        6    DK    0        8    52       28           3        4        0    29        60           4     469

C. Complaint outcomes

1. # of referrals accepted for investigation         8    DK      DK        1        7        1   DK        DK    0        0    11           1    DK       DK           0        1     DK           3      22
by
     complaint-handling agencies

2. # of convictions or other punitive actions    DK       DK      DK    DK       DK       DK      DK        DK    0        0        0    DK       DK       DK           0        0     DK       DK          0

3. Dollar amounts recouped (including fines      DK       DK      DK    DK       DK       DK      DK        DK    0        0 3,000       DK       DK       DK           0        0     DK       DK          0
   and restitutions)

4. # of other actions                            DK       DK      DK    DK       DK       DK      DK        DK    0        0    22       DK       DK       DK           0    39        DK           1      40




Note: The total does not include New York.
                                                                                                  29
                                                                                                                                                                                              APPENDIX C


                  Activity                      AZ       CA       CO       FL       GA       IL        LA       MA       MO    NJ       NY       OH       OR       PA       TN       TX        VA       WA       TOTAL


III. Building Partnerships
A. Contacts with agencies and
organizations concerning the design and
operation of ORT

1. # of contacts with the Medicare Carrier       84           5    14       14       20           1         2    12       5         1    81           4        0    12       10           2     33       DK        219

2. # with the Financial Intermediary             27      DK            0        4    25           1         0        5    5         1    12           4        0        4   DK            2     21           0      99

3. # with the Regional DME Carrier               18      DK            0        2        2        1         0        9    1         1    67           5        0        4    10           2     10           4      69

4. # with the State Medicaid Fraud Control       21           4    1        15           8        5         2        5    3         1    78           1    10           4        2        2     21       30        135
     Unit/Attorney General’s office

5. # with the State insurance counseling         DK       DK           0    58       10           7         2    DK       17    DK           2    20       10       DK           2   DK         29       DK        155

6. # with the LTC Ombudsman program              DK       DK       2        17       DK           2         1    10      DK     DK           0    17       10       DK           5   DK         79       20        163

7. # with other agencies/organizations           34       33       5        25       12           6         2    13       3     DK       93           6    10       12       30      DK         74      150        415

Total                                           184       42       22      135       77           23        9    54       34        4   333       57       40       36       59           8    267      204       1,255

B. Results of partnership-building
activities

1. # of training materials these agencies and        6        8    2            1        5        1         2        0    0         0    71           1        5        3        2        2         3        4      45
     organizations helped develop

2. # of training sessions in which they          21           4    20           4        2        2         2        0    14        0    55           1    DK           5        5        1         1    35        117
     participated as trainers

3. # of ORT task force or other meetings in      39           8    13       30       10           2         0        0    3         0    30           1    10           4        3        3         3    20        149
     which they participated

4. # of written procedures developed with        10           4    5            0        1        1         0        1    0         0    25           3        0        1        1        1         0    11         39
     them to coordinate ORT activities

Total                                            76       24       40       35       18           6         4        1    17        0   181           6    15       13       11           7         7    70        350




Note: The total does not include New York.
                                                                                                       30
                                                                                                                                                                                             APPENDIX C


                  Activity                      AZ       CA       CO       FL       GA       IL        LA       MA       MO   NJ       NY       OH       OR       PA       TN       TX        VA       WA       TOTAL


IV. Staffing and Management
A. Uses of ORT funds

1.. # of SUA staff supported in whole or in          6        0        1        2        1        0         0    0.5      0        0   0.75          2        0        0        1        0         0   0.17        14
      part with ORT funds

2. # of AAA staff supported in whole or in           0        0        0        5        0        0    DK            0    0        0        3    DK           0        0        0        0         0        0       5
     part with ORT funds

3. # of other agency/organization staff              2        3        2        0        0        1    DK            0    1        0        1    DK           1        1        2        0         3        0      16
     supported in whole or in part with ORT
     funds

Total                                                8        3        3        7        1        1         0        1    1        0        4        2        1        1        3        0         3        0      35

B. Leveraging of ORT resources

1. # of network on aging staff supporting the    24       99           1    17       30           13        1    19       1        5    27       12           0    30           0    54            0    34        340
      ORT program who are paid for with
     other funds

2. # of volunteers supporting the ORT            88 1,400              3    65           0    DK        46      400       0   400 1,500          DK       42       58           0 1,123            0   395       4,020
     program

Total                                           112 1,499              4    82       30           13    47      419       1   405 1,527          12       42       88           0 1,177            0   429       4,360




Note: The total does not include New York.
                                                                                                       31
                                                                                                                 APPENDIX C



                      Operation Restore Trust Program Performance Report

                                  Instructions and Definitions



Training and public information activities: Section I A and B of the report cover the initial materials development and train-the-
trainer sessions conducted by or on behalf of the ORT grantee. Trainees consist of the network on aging and other staff and
volunteers, including personnel from State and Area Agencies on Aging and service providers, and staff and volunteers from the
Long Term Care Ombudsman and insurance counseling programs, among others. These activities also include other outreach and
informational efforts, such as presentations to professional groups and public service announcements (PSAs) to inform the public
about ORT and how to identify and report cases of health care fraud and abuse. A major purpose of the ORT training activities
described in Section I B is to create a cadre of knowledgeable individuals who, in turn, educate beneficiaries and others who work
with them to identify and refer potential cases of health care fraud and abuse to appropriate federal or state agencies.

Activities of ORT trainees: Section I C covers the activities of these trainees after they return to their respective agencies and
organizations. In many respects, this subsequent activity is the most important contributor to ORT success by promoting
beneficiary awareness and reporting of fraud and abuse in the Medicare and Medicaid programs. Reporting this information,
however, requires the grantee to establish and maintain ongoing communication with trainees on ORT activities.

Complaint receipt and referral activity: While the activities in this section are voluntary, AoA is encouraging all HIPAA grantees to
build on or develop a state-level capacity to receive and screen calls about potential cases of health care fraud and abuse from
Medicare and Medicaid beneficiaries, their family members or care givers, and others. Receiving these calls at the state level will
allow screening for, and directly addressing, simple billing questions or other non-fraud and abuse cases that the state insurance
counseling programs routinely handle.

This also permits referral of the remaining calls to the most appropriate fraud and abuse agency, including the new HHS TIPS
Hotline number for use by the ORT grantees. Section II covers the receipt of these calls, the referral of these calls to the particular
fraud and abuse agency, and the results or outcomes of these referrals, including the specific action these agencies took. Given the
initial stages of ORT program implementation and the length of time it takes to resolve a complaint, call volume and resolution
figures may not be high.


                                                                   32

                                                                                                              APPENDIX C



                                               Definitions (Continued)



Building partnerships: The ORT legislation calls for developing partnerships with other state and local agencies and organizations
responsible for combating health care fraud and abuse. The purpose of these partnerships is to provide for a logical link between
ORT grantee activities and the work of other entities, including those that receive and investigate complaints. Please identify the
agencies and organizations you have contacted and the results of your partnership-building activity during the reporting period.

Staffing and management: ORT grantees vary in how they allocate their funds among the State Unit, Area Agencies, and others
responsible for program implementation and operation. In addition, many grantees are using the ORT award as seed money to
stimulate the use of other resources to promote identification and reporting of health care fraud and abuse. Identifying the number
of staff and volunteers engaged in ORT activity, beyond the limits of the grant, helps demonstrate the extent to which ORT funds
have leveraged other resources.




                                                                 33

Comments

                  APPENDIX D




            34

35

36

